WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-250
The Texas Brandon Corporation, Inc., et 3 EOG Resources, Inc., et al
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
O Iam filing this waiver on behalf of all respondents.
© Ionly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Fred Levine

Please check the appropriate box:
© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: Julia A Cook Cee ee ig inner OG
Date: 8/10/21

(Type or print) Name | Julia A. Cook

O ur. © Ms. O Mrs. O Miss
Firm Schlanger SiverLLP a
Address (109 'N Post Oak Lane, Suite 300 : ;
City & State Houston, Texas 7 7 - - _ ; 7 Zip 77024 ;
Phone 713-785-1700 : Email jcook@schiangersilver.com -

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

‘Ron Wilson & Associates, PC.
ce: |4003 Redwin Circle
Houston, TX 77047
